     Department of Homeland Security

     ��������������������������



 George County, Mississippi, Successfully Managed 

     FEMA’s Hazard Mitigation Grant Funds – 

                Hurricane Katrina





OIG-14-26-D                             January 2014

                         OFFICE OF INSPECTOR GENERAL
                             Deparlmenlnf Homeland Security
                              \Vashtngton, DC 20528 / www.oig.dhs.gov


                            January 24, 2014


MEMORANDUM FOR:              Major P. (Phil) May




FROM:
                             Assista l}t)il'f5j3ec:t'l
                             Office      Emergency Management Oversight

SUBJECT:                     George County, Mississippi, Successfully Managed FEMA 's
                             Hazard Mitigation Grant Funds -Hurricane Katrina
                             FEMA Disaster Number 1604-DR-MS
                             Audit Report Number OIG-14-26-D

We audited Hazard Mitigation Grant Program funds awarded to George County
(County), Mississippi (FIPS Code 039-99039-00). Our audit objective was to determine
whether the County accounted for and expended Federal Emergency Management
Agency (FEMA) grant funds according to Federal regulations and FEMA guidelines.

This report is our second and final report on our audit of Hazard Mitigation Grant
Program funds awarded to the County. In May 2013, we issued an interim report (Audit
Report DA-13-15) recommending that FEMA work closely with the State, County, and
contractor representatives to resolve contractor disputes that were contributing to a
delay in completion of two safe rooms funded under the grant.

The County received a Hazard Mitigation Grant Program award of $4.1 million from the
Mississippi Emergency Management Agency (MEMA), a FEMA grantee, following
Hurricane Katrina, which occurred in August 2005. The award provided $713,100 for
emergency generators at a 75 percent Federal cost share ($534,825) and $3.4 million for
the construction of two safe rooms at a 100 percent Federal cost share.

We audited the three projects with awards totaling $4.1 million. The audit covered the
period of August 29, 2005, to February 7, 2013, during which the County claimed
$3.7 million of FEMA funds under the three projects (see Exhibit, Schedule of Projects
Audited). At the time of our audit, the County had not completed work on all projects,
and therefore had not submitted final claims to MEMA on all project expenditures.

We conducted this performance audit between February and August 2013 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. To conduct this audit, we applied the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We judgmentally selected and reviewed project costs (generally based on dollar value);
interviewed County, MEMA, and FEMA personnel; reviewed the County’s procurement
policies and procedures; reviewed applicable Federal regulations and FEMA guidelines;
and performed other procedures considered necessary under the circumstances to
accomplish our audit objective. We did not assess the adequacy of the County’s internal
controls applicable to its grant activities because it was not necessary to accomplish our
audit objective. However, we gained an understanding of the County’s method of
accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.


                                     BACKGROUND

Section 404 of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as
amended, authorizes the Hazard Mitigation Grant Program. The purpose of the Hazard
Mitigation Grant Program is to reduce the loss of life and property from future disasters.
FEMA awards grants to States, which in turn may award subgrants to other State
agencies, local governments, Indian tribal organizations, and other eligible entities. Each
State administers the Hazard Mitigation Grant Program according to a FEMA-State
agreement, comprehensive Standard or Enhanced State Mitigation Plan, and State
Hazard Mitigation Grant Program Administrative Plan. FEMA must approve these plans
before it awards funds to the State. FEMA is responsible for assisting the State,
approving or denying project applications, and reviewing the State’s quarterly and final
reports.


                                   RESULTS OF AUDIT

George County successfully managed FEMA’s Hazard Mitigation Grant funds. However,
MEMA paid the County using incorrect Federal cost share rates, resulting in the County
receiving a net Federal cost share overpayment of $146,617. Also, the County did not
adequately consider the past performance of a contractor it selected to construct two
safe rooms, which contributed to delays in completing the safe rooms. Finally, MEMA
did not adequately monitor the County’s grant activities.




www.oig.dhs.gov                              2                                  OIG-14-26-D 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Finding A: Federal Cost Share Overpayment

MEMA paid the County using incorrect Federal cost share reimbursement rates under
three projects, which resulted in the County receiving a net Federal cost share
overpayment of $146,617. Federal regulation 44 CFR 206.432(c) requires all approved
mitigation measures to be subject to the cost sharing provisions the FEMA-State
Agreement establishes. The overpayment occurred because MEMA did not properly
adjust Federal cost share payments to the County when Federal share rates changed.
This issue involves multiple projects as described below:

   •	 Generators (Project 0010-255). As of February 2013, the County claimed
      $700,276 of costs under this project. The Hazard Mitigation Grant Program
      agreement adjusted the generator project’s Federal cost-share from 100 percent
      to 75 percent on April 21, 2010. Under these terms, MEMA should have paid the
      County a total of $525,207 of Federal funds, or 75 percent of the $700,276 of
      costs the County claimed. However, MEMA paid the County at a Federal cost
      share of 100 percent. Therefore, MEMA needs to correct the Federal cost share
      overpayment of $175,069 ($700,276 less $525,207).

   •	 East Safe Room (Project 0343). As of February 2013, the County claimed
      $1,468,048 of costs under this project. On November 2, 2010, FEMA
      retroactively increased the project’s Federal cost share from 75 percent to 100
      percent. However, on July 22, 2010—prior to that change—MEMA made an
      initial partial payment of $42,678 to the County that reflected a 25 percent State
      cost share of $14,226. MEMA did not adjust subsequent payments to reflect the
      100 percent Federal cost share for this project. Therefore, MEMA needs to
      correct the Federal cost share underpayment of $14,226 made on July 22, 2010.

   •	 West Safe Room (Project 0344). As of February 2013, the County claimed
      $1,694,606 of costs under this project. The Federal cost share for this project is
      100 percent. However, MEMA’s initial payment of $42,678 on May 6, 2011,
      shows a 25 percent State cost share of $14,226. At the time of our audit, MEMA
      had made 10 additional payments to the County at the correct 100 percent
      Federal share, but had not corrected the $14,226 Federal share underpayment.

Table 1 identifies the net Federal overpayments of $146,617 and the related projects.




www.oig.dhs.gov                            3	                                 OIG-14-26-D

                             OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

                          Table 1. Net Federal Share Overpayment 

                                                         Correct
                              Amount       Approved      Federal        Actual
                              Claimed       Federal     Payment         Federal      Federal
                               (As of         Cost    Amount as of   Amount Paid      Over/
                              February       Share     Audit Scope    as of Audit   (Under)
  Project         Title        2013)         Rate         Date        Scope Date    Payment
   0010-    Phase II
    255     Generator         $ 700,276       75        $ 525,207      $ 700,276     $175,069

   0343     East Safe Room     1,468,048     100         1,389,947      1,375,721     (14,226)

   0344     West Safe Room     1,489,807     100         1,429,780      1,415,554     (14,226)
   Total                      $3,658,131                $3,344,934     $3,491,551    $146,617

MEMAfResponse. MEMA officials disagreed that it overpaid the County its Federal cost
share on the Phase II Generator project (Project 0010-255). They said that the County’s
generator project was part of one statewide initiative project involving nine subprojects
with varying cost shares and that the final Federal cost share for the Phase II generator
project would be 100 percent. They said that they would request a new approval letter
from FEMA to reflect the Federal cost share of 100 percent. Finally, MEMA officials said
that they would reconcile the cost share payments on the two safe room projects
(Projects 0343 and 0344) at project closeout.

OfficefoffInspectorfGeneralf(OIG)fResponse. We disagree with MEMA’s position. Project
file documentation reviewed during our audit indicated that FEMA funded the Phase II
Generator project at a 75 percent Federal cost share. Therefore, MEMA should have
reimbursed the County at a 75 percent Federal cost share instead of 100 percent.
MEMA should correct its accounting system to reflect the FEMA-approved Federal cost
share on all projects as soon as possible rather than wait until project closeout so that it
can use those funds to reimburse the Federal cost share of other hazard mitigation
projects.

Finding B: Procurement – Contractor Selection Process

The County did not adequately consider the past performance of a contractor it selected
to construct two safe rooms within the County (Projects 0343 and Project 0344). As a
result, the County experienced several contractor performance issues that contributed
to delays in completing the safe rooms. Federal regulation 44 CFR 13.36(b)(8) requires
grantees and subgrantees to make awards only to responsible contractors possessing
the ability to perform successfully under the terms and conditions of a proposed
agreement. Grantees and subgrantees must consider such matters as contractor
integrity, compliance with public policy, record of past performance, and financial and
technical resources, when awarding contracts.


www.oig.dhs.gov                                4                                    OIG-14-26-D

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


FEMA approved the safe rooms to provide County residents protection from extreme
weather events such as hurricanes and tornadoes. The County solicited competitive bids
for construction of the two safe rooms and selected the lowest bidder from eight sealed
bid proposals. At the onset of this audit, we noted that the County was involved in an
ongoing dispute with the contractor over 43 punch list items, as well as whether the
contractor had substantially completed the safe rooms. The dispute contributed to
delays in opening the safe rooms for the 2013 hurricane season, which began June 1,
2013. In May 2013, we issued an interim report recommending that FEMA work closely
with State, County, and contractor representatives to resolve the issues so that the safe
rooms would be ready for the 2013 hurricane season.1

The County could not provide evidence that it considered the contractor’s past
performance history to determine whether the contractor could successfully perform
under the contract terms and conditions. Had it considered the contractor’s past
performance, the County may have avoided the contractor performance issues. For
instance, we identified three separate contract disputes that occurred before April 2011
involving the contractor in question and other Mississippi cities and counties. If the
County had researched those disputes, it might have selected a different contractor for
the Federally-funded work. We discuss those disputes below.

    •	 January 13, 2010, and March 8, 2011. The State of Mississippi mitigation website
       (mitigationms.org) documents issues the City of Gulfport, Mississippi, had with
       the contractor regarding wall installation and possible litigation on the
       construction of the city’s Charles Walker Community Center, a FEMA-funded
       grant project.

    •	 May through July 2010. The State of Mississippi mitigation website
       (mitigationms.org) documents issues that Hancock County, Mississippi, had with
       the contractor in meeting project completion dates and exceeding budgeted
       amounts on five safe room projects that FEMA funded. The architectural and
       engineering (A/E) firm George County hired for the two safe room projects also
       served in the same capacity for Hancock County’s safe rooms.

    •	 July 19, 2010. Local media reported a dispute between the City of Gulfport,
       Mississippi, and the contractor over deficient work on Grasslawn, a FEMA-
       funded post-Katrina project involving a City-owned beachfront home.

1
 OIG Audit Report DA-13-15, ContractfDisputefDelayingfHurricanefSheltersfatfGeorgefCounty,fMississippi:f
InterimfReportfonfFEMAfHazardfMitigationfGrantfProgramfFundsfAwardedftofGeorgefCounty,fMississippi;
May 21, 2013.f



www.oig.dhs.gov                                     5	                                      OIG-14-26-D

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


County officials said that neither FEMA nor MEMA informed them of the Federal
procurement requirement to consider a contractor’s past performance record during
the award process. They further added that, while there was “hearsay” regarding its
contractor, there was no substantive reason not to select the low bid, which State
procurement laws require.

Under 44 C.F.R. 13.36(b)(1) subgrantees must use their own procurement procedures
which reflect applicable State and local laws and regulations, as long as the
procurements conform to applicable Federal law and standards. Also, Item 11 of the
Hazard Mitigation Grant Program Agreement between the County and MEMA required
compliance with Federal law in procurement matters. Therefore, although we were not
made aware of a conflict between relevant State and Federal procurement laws and
rules, the County, as a subgrantee, was prohibited from relying on any state
procurement law that would conflict with Federal procurement laws and rules, when
making the awards.

CountyfResponse. County officials said that they followed State purchasing laws in good
faith and awarded the contract to the lowest and best bidder. They said that they had
no just cause to question or reject the contractor’s bid. The officials said that at the time
the County received the bids for the construction work that the contractor in question
was executing a contract to build five safe rooms for Hancock County, Mississippi.
County officials said that those projects were on budget and within allotted contract
time. Therefore, there was no documented reason to reject the contractor’s bid.
Further, County officials said that its A/E firm checked the references of the contractor
and verified all bonds and insurances before the A/E firm recommended that the County
award the work to the contractor in question. Finally, they said that the local media
reported the contractor’s issues with other entities after the County had awarded the
contract for construction of the County’s safe rooms.

OIGfResponse. We disagree with County’s position. As we previously stated, there was
no documentation in the County’s procurement files to indicate that it had researched
and considered the contractor’s past performance. Further, the contractor issues
associated with other FEMA safe room projects within Mississippi pre-date the County’s
safe room contract. Therefore, the County had access to the data through the State of
Mississippi mitigation website and local media. Finally, the contractor’s performance
issues should have come into question before the contract award because the County’s
A/E firm assisted the County in the selection of the contractor and had performed the
same duties on Hancock County’s safe rooms, which had performance issues.




www.oig.dhs.gov                               6                                   OIG-14-26-D

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

Finding C: Grant Management

MEMA did not properly monitor the County’s subgrant activities, which contributed to
delays in completing the safe rooms and other issues discussed in findings A and B.
According to Federal regulations at 44 CFR Part 13, the State, as grantee, is required to,
among other things—

   •	 Ensure that subgrantees are aware of requirements that Federal law and
      regulations impose on them. (44 CFR 13.37(a)(2))

   •	 Manage the day-to-day operations of subgrant activity and monitor subgrant
      activity to ensure compliance with applicable Federal requirements. (44 CFR
      13.40(a))

The initial completion date for the two safe rooms funded under the grant was May 23,
2012. However, MEMA requested an extension from FEMA that ultimately moved the
completion date to November 9, 2013 (nearly 18 months after the initial completion
date). County officials said they needed the time extension because of rain, contractor
schedules, and issues the County had with the contractor’s workmanship. However,
there was no evidence in the project files to suggest MEMA was concerned about the
timely completion of the projects. For example, the County notified MEMA on several
occasions in quarterly status reports (September 2011, December 2012, and March
2013) of significant issues with its contractor. However, those notices prompted no
action from MEMA until we discussed the issues with them in February 2013, shortly
after we began our audit.

MEMA officials said that they were monitoring the safe-room projects from a
programmatic standpoint and that completion was still within the period of
performance. However, we believe MEMA should have also focused on project
completion because of the critical need for the safe rooms. Since the safe rooms’ initial
completion target in May 2012, Hurricane Isaac passed through the County in August
2012, and tornados that caused extensive damage and warranted a Federal disaster
declaration occurred approximately 60 miles away in February 2013. Because the
County has no other FEMA-approved safe rooms, the longer the County takes to open
the safe rooms, the greater the risk to County residents from an extreme wind event
such as a hurricane or tornado.

Although MEMA passed along the quarterly status reports to FEMA, which indicated
issues the County was having with the contractor in completing the safe rooms, FEMA
did not require MEMA to remedy any project completion delays.




www.oig.dhs.gov                              7	                                 OIG-14-26-D

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

MEMAfResponse. MEMA officials disagree that they did not properly oversee the
County’s projects. However, they agreed that MEMA and its subgrantees should work
together to address contractor deficiencies early on and develop corrective action plans
to remedy any project completion delays.


                                  RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Require MEMA to correct the net $146,617 Federal overpayment
(finding A) by adjusting future Federal drawdowns for expenditures under the Hazard
Mitigation Grant Program.

Recommendation #2: Require MEMA to instruct the County of its responsibility to
comply with Federal procurement regulations when procuring goods and services under
a FEMA award (finding B).

Recommendation #3: Reemphasize to MEMA and Region IV Hazard Mitigation
personnel their responsibility to adequately monitor grant activities (finding C).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with County, MEMA, and FEMA officials during our
audit. We also provided a draft report in advance to these officials and discussed it at
the exit conference held on August 15, 2013. County and MEMA officials’ comments,
where appropriate, are included in the body of the report.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include the contact information for responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation.
Until we receive and evaluate your response, we will consider the recommendations
open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.



www.oig.dhs.gov                              8                                  OIG-14-26-D

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Major contributors to this report are David Kimble, Director; Larry Arnold, Audit
Manager; and John Skrmetti, Auditor-in-charge.

Please call me with any questions at (202) 254-4100, or your staff may contact
David Kimble, Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                             9                                  OIG-14-26-D

                           OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


                                                                                     Exhibit

                             Schedule of Projects Audited

                  Project                              Amount        Amount
                  Number        Project Scope          Awarded       Claimed

                  0010-255   Phase II Generator        $ 713,100    $ 700,276

                   0343      361 Safe Room East         1,675,134    1,468,048

                   0344      361 Safe Room West         1,694,606    1,489,807
                   Total                               $4,082,840   $3,658,131




www.oig.dhs.gov                                   10                             OIG-14-XX-D
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                                                                                   Appendix


                                      Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Chief Procurement Officer
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-13-054)

State
Executive Director, Mississippi Emergency Management Agency
State Auditor, Mississippi

Subgrantee
Fire Coordinator, George County

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform


www.oig.dhs.gov                            11                              OIG-14-26-D

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
